C'OCKLE
2311 Douglas Street CA

Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 19-988
LIVING ESSENTIALS, LLC;
INNOVATION VENTURES, LLC,
Petitioners,
Vv.
STATE OF WASHINGTON,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
GOLDWATER INSTITUTE, CATO INSTITUTE, AND REASON FOUNDATION IN SUPPORT

OF PETITIONERS in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 4825 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ee | La Q. Lhasa Ondine bl, Ble

Notary Public

Affiant

39551
